   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




December 13, 2010

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Las Vegas–Clark County Urban League
               (A-09-10-01011)


The attached final report provides the results of our limited scope review at Las Vegas–Clark
County Urban League. Pursuant to the American Recovery and Reinvestment Act of 2009 (P.L.
No. 111-5), the Office of Inspector General (OIG) provides oversight of covered funds to prevent
fraud, waste, and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-09-10-01011
in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW
  AT LAS VEGAS–CLARK COUNTY
         URBAN LEAGUE




                        Daniel R. Levinson
                         Inspector General

                          December 2010
                          A-09-10-01011
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285, to provide funds to alleviate the causes and conditions of poverty in communities.
Within the U.S. Department of Health & Human Services, the Administration for Children and
Families (ACF), Office of Community Services, administers the CSBG program. The CSBG
program funds a State-administered network of more than 1,000 local Community Action
Agencies (CAA) that create, coordinate, and deliver programs and services to low-income
Americans. These programs address employment, education, housing, nutrition, emergency
services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. Recovery Act funds
were distributed to CAAs using the existing statutory formula.

The Nevada Department of Health and Human Services (State agency) acts as the lead agency
for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant applications and monitoring
CAAs’ compliance with program regulations. The State agency was awarded $5 million in
Recovery Act funds for Nevada’s CSBG program.

Las Vegas–Clark County Urban League (the Urban League), an affiliate of the National Urban
League, is a nonprofit organization that provides services to over 5,000 participants throughout
Clark County, Nevada. During fiscal year (FY) 2010, the State agency awarded the Urban
League $2,157,189 in CSBG funds and $2,653,102 in Recovery Act funds, totaling $4,810,291.
For FY 2010, the Urban League received total Federal grant awards of approximately
$6.9 million.

OBJECTIVE

Our objective was to assess the Urban League’s financial viability, capacity to manage and
account for Federal funds, and capability to operate its CSBG program in accordance with
Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, the Urban League is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its CSBG program in accordance with
Federal regulations. However, we noted weaknesses related to financial procedures, property
management, and project execution.




                                                i
RECOMMENDATION

We recommend that ACF consider the information presented in this report in assessing the
Urban League’s ability to operate its CSBG program in accordance with Federal regulations and
in determining whether the Urban League is appropriately managing and accounting for
Recovery Act funds.

URBAN LEAGUE COMMENTS

In written comments on our draft report, the Urban League provided information on actions that
it had taken or planned to take to correct the identified weaknesses related to financial
procedures, property management, and project execution. The Urban League’s comments are
included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Nevada Department of Health and Human Services .....................................1
              Las Vegas–Clark County Urban League .......................................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          FINANCIAL PROCEDURES ...................................................................................3

          PROPERTY MANAGEMENT ................................................................................4

          PROJECT EXECUTION ...........................................................................................4
               Recovery Act Reporting ................................................................................4
               Results Oriented Management and Accountability Reporting ......................5
               Incomes of Individuals Receiving Program Benefits ....................................5

          RECOMMENDATION .............................................................................................6

          URBAN LEAGUE COMMENTS .............................................................................6

APPENDIX

          LAS VEGAS–CLARK COUNTY URBAN LEAGUE COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services, administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAA) that create, coordinate, and deliver programs and services to low-
income Americans. These programs address employment, education, housing, nutrition,
emergency services, health, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate the causes and conditions of poverty in communities. Recovery Act funds
were distributed to CAAs using the existing statutory formula.

Nevada Department of Health and Human Services

The Nevada Department of Health and Human Services (State agency) acts as the lead agency
for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s CAA Recovery Act grant applications and monitoring
CAAs’ compliance with program regulations. The State agency was awarded $5 million in
Recovery Act funds for Nevada’s CSBG program.

Las Vegas–Clark County Urban League

Las Vegas–Clark County Urban League (the Urban League), an affiliate of the National Urban
League, is a nonprofit organization that provides services to over 5,000 participants throughout
Clark County, Nevada. During fiscal year (FY) 2010, the State agency awarded the Urban
League $2,157,189 in CSBG funds and $2,653,102 in Recovery Act funds, totaling $4,810,291.
For FY 2010, the Urban League received total Federal grant awards of approximately
$6.9 million.

Requirements for Federal Grantees

Pursuant to 2 CFR part 215 and 45 CFR part 74, grantees of Federal awards must implement
written accounting policies and procedures and maintain financial systems that provide for
accurate and complete reporting of grant-related financial data, effective control over grant
funds, and allocation of costs to all benefiting programs. In addition, grantees must establish
written procurement procedures. Grantees are also required to maintain inventory control
systems and conduct a periodic physical inventory of grant-related equipment.



                                                 1
Pursuant to 2 CFR § 215.27 and 45 CFR § 74.27, the allowability of costs incurred by nonprofit
organizations is determined in accordance with the provisions of 2 CFR part 230, Cost Principles
for Nonprofit Organizations. The CSBG Act establishes the CSBG program and sets the
requirements and guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the Urban League’s financial viability, capacity to manage and
account for Federal funds, and capability to operate its CSBG program in accordance with
Federal regulations.

Scope

We conducted a limited review of the Urban League’s financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of the Urban League’s internal control structure. Rather, we reviewed only the
internal controls that pertained directly to our objective. Our review period was FY 2010
(July 1, 2009, through June 30, 2010).

We performed our fieldwork at the Urban League’s administrative office in Las Vegas, Nevada,
in July 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that the Urban League is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance and State guidance;

   •    reviewed the Urban League’s application and implementation of the grant awards for
        Recovery Act funding;

   •    reviewed the findings related to the most recent State review of the Urban League’s
        compliance with Federal and State CSBG requirements;

   •    reviewed the Urban League’s policies and procedures related to the CSBG program;

   •    reviewed the Urban League’s bylaws, minutes from the board of director meetings,
        composition of the board of directors, and organizational chart;

   •    performed audit steps to assess the adequacy of the Urban League’s current financial
        systems;



                                                2
   •   reviewed the Urban League’s audited financial statements for the periods January 1
       through June 30, 2007; July 1, 2007, through June 30, 2008; and July 1, 2008, through
       June 30, 2009;

   •   interviewed the Urban League’s program managers to gain an understanding of the
       implementation of CSBG programs funded by the Recovery Act;

   •   interviewed the Urban League’s director of planning and compliance to gain an
       understanding of Recovery Act and Results Oriented Management and Accountability
       (ROMA) reporting;

   •   traced information in the Urban League’s Recovery Act reports to supporting
       documentation;

   •   compared the third-quarter FY 2010 ROMA report to supporting documents to assess the
       accuracy, completeness, and validity of the data reported; and

   •   reviewed income information in five judgmentally selected case files.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Based on our assessment, the Urban League is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its CSBG program in accordance with
Federal regulations. However, we noted weaknesses related to financial procedures, property
management, and project execution.

FINANCIAL PROCEDURES

Federal regulations (2 CFR part 230, Appendix A) provide the general principles to be applied to
the composition of total costs, including establishing an indirect cost rate. Appendix A,
subparagraph C.1., states that indirect costs are those that have been incurred for common or
joint objectives and cannot be readily identified with a particular final cost objective. Examples
of such costs are the salaries and expenses of executive officers and personnel administration and
accounting expenses.

Federal regulations (2 CFR part 230, Appendix B, subparagraph 8.m.) state that charges to
awards for salaries and wages, whether treated as direct or indirect costs, will be based on
documented payrolls. The regulations also state that the distribution of salaries and wages to
awards must be supported by personnel activity reports that reflect an after-the-fact



                                                3
determination of the actual activity of each employee. Budget estimates (i.e., estimates
determined before services are performed) do not qualify as support for charges to awards.

The Urban League did not have a method for identifying or allocating indirect costs. For
FY 2010, the organization did not charge indirect costs to most Federal awards. Instead, the
organization incorrectly charged indirect-type costs as direct costs. For example, professional
staff that performed functions such as accounting and payroll, which benefited multiple
programs, directly allocated all of their time to only a few programs. Professional staff recorded
their time based on budget estimates, not actual activity. Correct identification of indirect costs
is important for distributing indirect costs to all programs and functions.

PROPERTY MANAGEMENT

Federal regulations (2 CFR § 215.34(f)) identify the following required property management
standards for equipment acquired with Federal funds and federally owned equipment:
(1) accurate equipment records, including a description of the equipment, an identification
number, the source of the equipment (including the award number), the condition of the
equipment, and ultimate disposition data; (2) proper identification of equipment owned by the
Federal Government; and (3) physical inventory and reconciliation of equipment records at least
once every 2 years.

The Urban League did not maintain equipment inventory records and had not conducted a
physical inventory of equipment within the last 2 years. As of June 30, 2010, the Urban League
had reported $243,684 in equipment on its financial statements.

PROJECT EXECUTION

Recovery Act Reporting

On December 18, 2009, the Office of Management and Budget issued implementing guidance on
grantees’ reporting of the use of Recovery Act funds. Memorandum M-10-08, part 1, section 5,
states that timely, complete, and effective reporting under section 1512 of the Recovery Act is a
term and condition of receiving Recovery Act funding.

Section 1512(c) of the Recovery Act requires entities that receive recovery funds from a Federal
agency to submit a report that contains “an estimate of the number of jobs created and the
number of jobs retained by the project or activity ….”

To comply with Recovery Act reporting requirements, the State agency requires CAAs to submit
quarterly reports containing information on jobs funded by the Recovery Act. The State
agency’s Recovery Act reporting instructions for CAAs state: “Only enter job data on the
reporting form if the employee is paid from [Recovery Act] funds.” For each employee paid
with Recovery Act funds, CAAs are required to provide information such as the employment
start date, the name of the company that employed the individual, the number of hours worked in
the quarter, and the number of hours paid with Recovery Act funds. The reporting instructions
also establish due dates for each quarterly reporting period.



                                                 4
The Urban League did not always submit accurate and timely Recovery Act reports to the State
agency:

    •   Some line items in the reports included incorrect employment start dates, incorrect
        employer information, and/or an incorrect number of hours worked for the quarter.

    •   For the third reporting quarter of FY 2010, the Urban League overstated the number of
        individuals who were paid with Recovery Act funds. The Recovery Act report for the
        third quarter indicated that 32 individuals had received subsidized wages paid with
        Recovery Act funds. However, 11 of those individuals had not been paid with Recovery
        Act funds in the third quarter.

    •   The Urban League did not submit two of the four Recovery Act reports to the State
        agency on time.

Results Oriented Management and Accountability Reporting

Section 676(b)(12) of the CSBG Act states that the State plan must include “an assurance that the
State and all eligible entities in the State will … participate in the Results Oriented Management
and Accountability System ….”

Section 678E(a)(1)(A) of the CSBG Act states: “… each State that receives funds under this
subtitle shall participate, and shall ensure that all eligible entities in the State participate, in a
performance measurement system ….”

The State agency’s ROMA reporting instructions for CAAs state: “The agency is required to
maintain back-up documentation to support the total number of families and individuals
reported.” These instructions also establish due dates for each quarterly reporting period.

The Urban League did not maintain adequate documentation to support the data on the quarterly
ROMA reports. Furthermore, the reports were submitted 4 to 9 days after the due dates.

Incomes of Individuals Receiving Program Benefits

Section 673(2) of the CSBG Act states: “Whenever a State determines that it serves the
objectives of the block grant program ... the State may revise the poverty line to not to exceed
125 percent of the official poverty line otherwise applicable under this paragraph.”

For the CSBG program, the Recovery Act allows States to revise the poverty line not to exceed
200 percent of the official poverty line.

The Nevada CSBG State plan amendment states: “Services will be targeted to adults and youth
who are underemployed or unemployed and live in a household below 200% of poverty.”




                                                    5
The Urban League did not always ensure that the incomes of individuals receiving CSBG
program benefits under the Recovery Act were below 200 percent of the Federal poverty level.
Specifically, two of the five case files that we reviewed did not contain sufficient income
information for individuals who received benefits provided under CSBG programs.

RECOMMENDATION

We recommend that ACF consider the information presented in this report in assessing the
Urban League’s ability to operate its CSBG program in accordance with Federal regulations and
in determining whether the Urban League is appropriately managing and accounting for
Recovery Act funds.

URBAN LEAGUE COMMENTS

In written comments on our draft report, the Urban League provided information on actions that
it had taken or planned to take to correct the identified weaknesses related to financial
procedures, property management, and project execution. The Urban League’s comments are
included in their entirety as the Appendix.




                                               6
APPENDIX
                                                                                                                Page 1 of5


APPENDIX: LAS VEGAS-CLARK COUNTY URBAN LEAGUE COMMENTS 





                                 Las Vegas Urban League
                                 A Nevada Community Action Agency



November 8, 2010


Ms_ Lori A. Ahlstrand
Regional Inspector General for Audit services
Department of Health and Human Services
9O_ 7 lh SI. S uite 3-650
San Francisco, CA 94 103

Dear Ms_Ahlstrand,

Rc:     lle[H)Tt N llmher .'1-09-10-010 11

[n responsc to the Olliec of Inspector General (OIG) draB report enti tled Re.~II'ls ofLimited Scope Review (1 /
lAs Vegas-Clark COI/JI~'" Urban League. we o!l'cr the fol lowing comments.

FINANCIAL PROC EDURES

Finding

       Thl' Urban uugUI' did nOI hun' 11 mNhud for id('ntify ing or a llocating intiir<'C1 custs. For FY 2tJ 10,
       the uq;~lIIizatiun did nul charg~' indin~ct costs 10 must F('d{'r~1 uwards. InSIl'ad, the urganiz~ltiun
       incmTectly chaq;ro indin~t:I-t)' fH' costs as din'ct cos ts, Fill' l':\ample, pnJfl'Ssiullal s ta ff that
       p('rrolllled fun ctions s uch as accuunting and pay roll, which bl'ndi!ed multiple programs, dir('ctly
       alloGlled all uf theil' lime 10 unly 11 few pmgnmls.. Pnlfl'ssiollHI staff I"l'i;OI'dl'd their time based UII
       budget es timates, nut aelmll activity, Con'eel identification of indh-('ct costs is impol'tant fOl'
       distributing indire ct custs to all progr a ms lind functions,

R('SllOnse


When the Las Vegas Urban League (UL) began in 2004, our indirect labor personnel consisted ol"only scven
iudividuais. Our charges wcre based upon documented pa yrolls that were supportcd by activity details. Thus.
the allocation issuc was not a problem and wc were in compliance \\;th 2 CFR Part 230, Appendix 8 ,
subparagraph 8_m.


[n thc last two fiscal ycars, the statliug size of the UL' s indi rect labor person nel has tripled. In thc fall 0[2009
the UL allcmptcd to submit an Indirect Cost Rate Application to DI-IHS ', Regional Otlicc in San Franeisco_ It
was explained that the application can only bc submitted to a fedcral agency tha t provided " direct" funding to
our agency. In April 2010 the U. S. Department of Commcrce bccamc our cognizant agency fo r negotiating an
                                                                                                                           Page 2 of5




indirect cost rate. Our audited financial statem ents dated JUlie 30, 2010 will be used to calculate the UL's
indirect cost. "1111S infOnllation will h.: sub mitted     IQ   the U. S. Departm.:nl of Co111mcree to bt:gin negotiations
lor un indirect cost nlte. We expect to ha ve the submittal by           Decem~r    31 , 2010.


In the interim, the agency has initiated a lillie study to be completed by all indirect personnel. Upon completion
urtlu: month long study, a compilation of tile hours and activities will          b~ ll~ed   as the basis to allocate all fUlure
time to the programs being serviced by thil indirect p>!rSollnel. 1111S system wi ll be in place until rul approved
indirect cosl r,lle    h'L~   been received. Aller submissio n of indirect COSI rate application, the e.x pectro approval
time will range from three to six months before a pro visional rate will be iss ued by the U. S. lAi>artment of
Commerce.


PROPE RT Y MANAGEI\:IENT

I' inding

        T he Ur b:ln League did not ma intain equi pment in\'cntory lToords :lIId had not eondue/cd a
         physical invento ry of equipm ent within th e last 2 yt"drs. As of .Iune 311, 201 0. th e Urba n J.,e:lgue
        ha d reported S243,684 in equipment on its fm ancial statemeDts. PI;OI' to t he UL's designation as a
        Community Action Agency in 2006, the acquisitio n of l'quiplllent a nd oth(' r fi :wd assets was a
         "('li ult of u sin g UIII't'strictt'tl fund s and our rcce i\'in g dllnat t'tl itl'ms. No fed er.al dollars w er e used .

R cs pon st~


After GraIl! Awards were received, in particular CSBG, the financ ial accounting of the award amount :Uld the
items purchased has been maintained by our Finance Department in our Fixed Asset Schedule. TIle ph ys ical
accountability of the assets was maintained by the indi vid ual departments. Since the bulk ofthe items
purchased were computer and peripherals items. the lnfonnatioll Tec!ulo!ogy (IT) department kept infollnation
of those ph ys ical assets.


Our growth in th e last two fiscal yean; exposed our need for a un ified plOpcrty management tracking SYl;tem
that would gi\'e details on the finaneia! as well as the physical aspect of all assets by one reporting method.


in April 20 I 0, the UL purc hased a S25,OOO inventory Tracking system. Immediately, a task force was assigned
and trained    011   its lillie. 'Inc fint phase of operation included the ta ggi ng of all A R RA funded purchases.       '111C

output report is in compl iance with 2 CFR Part 215.34(1) and was completed by June 30, 2010.


We aN now in phase two which began September 2010. TIle task force has ¢:',:Vanded to include departmcnt
representatives who arc in the process of tagging all of their assets.

                                                                   2
                                                                                                                      Page 3 of5




By December 3 1, 20 10 th e UL t:Xpc:CL~ to be in full ('Qmplian ce of propt rt y management requirenHmls.


)'l{o.n:cr     EX"~Cl1TI() i'I'

Recovery Act Reporting


Jiinrling
         T h e Ur ban Ll'agul' did not always su bmit accul1Ite a nd timely Recm'l'ry A d '"I'Jl0I1s to the St a t e
         agency:


         • 	 SOllie line items ill the ,'cp0l1s included incorrect employment shu1 dates, illcon~d cmployci'
             infornmtion. :lud/ur an inl'OITCct num ber of ho ur.> worked for t he quarter.

Res ponse


In the startup phase or the pro!,'rdlll, Ihe " in te nt 10 hir<:" document occasio nall y had a dilTerent start date than the
actual hire dat e. The delay in the start date gen erally had 10 do w ith th e time require d to condu ct backgrolmd
checks, obtain health cards, and solve transportati on      issu~.   Howeve r, I hi~ issu.: was rt:solved and did nol res ult
in nn y overpnyment to Ihe employee or th e pn rticipating partner employers. Pn}111ents were cal culated after
bona-tide checks had been iss ued 10 employees and copies se nt 10 the Urban League.
         • 	 For t he third rt'porting quarter of );·Y 2010, the Urban League overstated the number of
             ind ividllals who we re paid with nccow,·y Act funds_ T hc neco"ery Act l"Cpori for thc third
             qunrter indicated that 32 indhi du nls hnd I"cceh'l11 subsidized wagl"S pnid with Rcc.oYC1"y Al1
             fund s. lIowever, 11 of those indh'idu ~lls had n01 bel'n paid with Rel,o,·ery Ali fund s in the
             th.il"d quarter.

The Urblm League did o\'er.;lale the number of employees who had received subsidizoo               wagc~   during Ihe th ird
quarter but this mistake was disco,-ered and subseq uentl y corrected. H te Urban League in laler reports used the
correci slart dales and end dates 10   lL~sure   that Ihe nurn hcr of indi viduals receiving subsidi:r.ed wages was
a(."Curatcl y rep orted.


         • 	 The Urb:m ikaguc d.id 1I0t submit "\·0 oCthe four· necol'{'ry Act rcpolis to the State ngcncy 011
             time.

 The Inte reports did nOI result in the Nevadn DepnrtmeTlt of Henlth ruld Human Services missing their dendline
 for reporting. We were working 10 assun: the accuracy of th e report s and that resu lted in th e reports being late.




                                                               3
                                                                                                                              Page40fS




 Ih'Sull s O ri e nt ed M ana gem e nt anti Acco unt a bility R eporting

        • 	 T he U,'brlll League d id 1101 mai ntain a deq uate documentation 10 SUPllOrf th e data o n the
            qua rterly ROMA re portS. l'ul1henno l'e, Ihe repol1s were submitted 4 to 9 days a ller the due
             d a tes.

 We ha ve increased our documentation requirements for all programs and have                   c~tabli sh cd   additional databases
 in all program s wh ich r.:ceive CSBG flUlding. Some of our program~ report dir.:ctly to the Stahl agi:nci.:~ on
 th e numher of clients see n and the     s<,T\' ; CCS   provided. \ Vc ha ve established a method of capturin g this
 infoml<ll ion and including it in ou r    RO~:I A       r.:ports wh.:re required. In addition we have trained o ur employees
 in the pr{)cc~s of capturing the appropriate dala needed for R01l.o\ A reports in our Adsystech computer program.
 Om: employ.:e has rec.:i ved ROM A c.:r1ilication from the Nat ional!'.:er to !'.:er ROMA Projel1., Sh.: was sent
 to a fo ur-da y training and received said certification after completing the process. This employee is now
 responsibl.: for assuring th.: quality of all entri.:s into o ur comput<!T sySlt:m with full documentation in the lilo::s,


        The IJr han l.A'agul' did no t alw ays I'n su rt' tha t th e inculIll's uf indiyidua ls I"t'ct'i\'in g CSBG
        pmg l"lllll benefits Wid E"!' the Reco"e ry Act wtl"(> b('low 200 ptl'cent of t he Ftdtl"lll poverty I('''tl,
        Spt'dtil .llly. m'o of th e fh 'e l'lISe files th a t w e I't'yi ewoo did n nt conta in s unid e nt in come
                  H




        inful"nmtio n fo r indi,'iduab wh o l'l'l...i"ed he nefits pr'm'id l' d und t' r' csnG pmg mm s.

'111e two fil es id.;:ntifi.;:d we re for indi viduals who had initially ent.;:red the sysli.,'1ll throu gh our Family
Development office, 1111' Urban League otfered Empl o)111ent and Trailling services in one office and Case
1I.-Ianllgeme nt in anothe r office in close proxi mity, All clients we re iniliall y assL'!;sed in the office o ffering        elL~e

managemem services then referred to the empio),lllem and tmining otlice, In a few cases the HIes with the
income verification wef(: in the Famil y Development offi ce rather th:m dupl icated in the Emplo)111ent :md
Training oOice, Fully, 59 percent of the nUllilies receiving service from the Urban League reported ha ving no
income at all; this is possibl y the reason that some case fil es did not contain sufficient income infomlation. Our
procedures ha ve been revised to assure that all client income is fully documented, We require all clients to
complelt: an income v.:rification fonn and to present docum.:ntation of all income noted through check stubs,
welfare verificati ons, child support documents etc,


RECO J\'Il\1ENDAT ION

        " 'I' recomm e nd th a t ACF cOll ~ i dt' I' t he infm TIla ti un pl't'sl' nt ed in t.his rt' p1ll1 ill assess in g th e l;"han
        Lcagu("'s abiUl)" to opcml(" its csnc progl'lm in ac{'ol'da n{'c with Fcdc l'III't'gula lions a nd in
        d ett' rTIlinin g wh t'th el' th e 11 l' h:1I1 League is appl"Opri:l tely m a na gin g a nd acrountin g fo r Kl'COn' I'Y
        Act F und s.




                                                                    4
                                                                                                             Page 5 of5




We strong ly feel that the Urbrul League is fully capable of operating its eSSG program ill accord:Ulce with
Federal regulat ions and has shown   i L~   ability to do $0. We w ill continue to work the Slate of Nevada eSSG
Coordinator to ens ure tlw t issues rdated to the DIG audit ar<1 corrected.


Very trul y yours,




/o.o\orsc Arhc rry
Interim President and CEO




                                                             5
